October 26, 2020
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg PA 17120
(Phone) (717) 787-1401
(Fax) (717) 783-5431
Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543
RE:

Donald Mitchell Tedford v. Pennsylvania
Case No. 20-5795 (Capital Case)

Dear Mr. Harris:
By this letter and pursuant to Rule 30.4, Respondent, the Commonwealth of
Pennsylvania, is respectfully requesting an unopposed extension of 45 days’ time in
which to file its brief in opposition to the petition for writ of certiorari in this capital
case, from October 26, 2020 to December 10, 2020.
On September 16, 2020, Petitioner Donald Tedford filed his petition for writ of
certiorari with the Court. The petition was docketed on September 24, 2020. Pursuant to
Rule 15.3, the Respondent’s brief in opposition is presently due to be filed on or before
October 26, 2020.
Although undersigned counsel has begun preparation of Respondent’s brief in
opposition, he requires additional time beyond October 26, 2020 due to challenges posed
by the Covid-19 pandemic. Specifically, undersigned counsel has experienced periodic
difficulty accessing Westlaw working from home via his office desktop computer. In
addition, undersigned counsel has two school-aged children who attend school remotely
due to the pandemic and require supervision and assistance.
In light of these circumstances, Respondent respectfully requests the Court to find
good cause to extend the filing deadline for its brief in opposition to the petition for writ
of certiorari by 45 days until December 10, 2020. Undersigned counsel has
communicated with counsel for the Petitioner, Adam Cogan, Esquire and Attorney Cogan
has graciously indicated that he and his client do not oppose this request for an extension
of time.

Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543

Page -2-

Thank you for your attention to this request.
Sincerely,
/s/WILLIAM R. STOYCOS
William R. Stoycos
Senior Deputy Attorney General

C:

Adam B. Cogan, Esquire

